   June 6, 2003




Acquisition


Service Contracts at the National
Imagery and Mapping Agency
(D-2003-099)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

DCADS                 Defense Contract Action Data System
DFARS                 Defense Federal Acquisition Regulation Supplement
FAR                   Federal Acquisition Regulation
NIMA                  National Imagery and Mapping Agency
PRISM                 Procurement Request Information System
           Office of the Inspector General of the Department of Defense
Report No. D-2003-099                                                     June 6, 2003
   (Project No. D2001AD-0159)

                   Service Contracts at the National Imagery and
                                 Mapping Agency

                                  Executive Summary

Who Should Read This Report and Why? DoD procurement and contracting
personnel involved in service contracting should read this report. The report discusses
the need for adequately trained contracting personnel to award and administer service
contracts.

Background. The National Imagery and Mapping Agency is responsible for providing
timely, relevant, and accurate analysis and visual representation of security-related
activities on the Earth, which include imagery, imagery intelligence, and geospatial data
and information. From FY 2000 through FY 2002, the National Imagery and Mapping
Agency awarded 1,962 service contract actions, with a total dollar value of more than
$1.3 billion dollars, which support agency operations. In awarding those contracts, the
National Imagery and Mapping Agency staff should follow service contracting policies
and procedures provided in the Federal Acquisition Regulation and the National Imagery
and Mapping Agency Acquisition Regulation Implementation.

Objectives. The audit objective was to determine whether the National Imagery and
Mapping Agency followed appropriate contracting policies and procedures in awarding
professional and technical service contracts. We also reviewed the management control
program as it related to the audit objective.

Results. Contracting officials did not adequately support decisions or include all
relevant documentation in contract files. Further, the acquisition and procurement
community needed to implement effective management controls.

       •    We reviewed 86 contract actions, valued at $247.3 million, and 85 contract
            actions had one or more of the following problems:

               -     77 of 86 technical evaluations were missing or inadequate,

               -     55 of 86 price negotiation memorandums were missing or inadequate,

               -     85 of 86 independent government cost estimates were missing or
                     inadequate, and

               -     50 of 54 justifications and approvals were missing or inadequate
                     (where applicable).
Table of Contents

Executive Summary                                                    i

Background                                                           1

Objectives                                                           1

Findings
     A. Awarding Professional and Technical Service Contracts        2
     B. Management Controls in Contract Operations                  10
     C. Accuracy of the Procurement Information Reporting Systems   15

Appendixes
     A. Scope and Methodology                                       20
          Prior Coverage                                            21
     B. Statistical Random Sample                                   23
     C. Adequacy of Contract Actions                                24
     D. Report Distribution                                         27
Background
    National Imagery and Mapping Agency (NIMA). NIMA is responsible for
    providing timely, relevant, and accurate geospatial intelligence in support of
    national security. Geospatial intelligence is the analysis and visual representation
    of security-related activities on the Earth, including imagery, imagery
    intelligence, and geospatial data and information. DoD policy makers, military
    decision makers, warfighters, civilian federal agencies, and international
    organizations rely on information received from NIMA as a foundation for
    planning decisions and actions.

    Service Contracts at NIMA. A service contract is a contract that directly
    engages the time and effort of a contractor whose primary purpose is to perform
    an identifiable task rather than to furnish an end item of supply. NIMA uses the
    Procurement Request Information System (PRISM) as an automated tool for
    tracking and recording contracting actions. From FY 2000 through FY 2002,
    NIMA awarded 1,962 service contract actions, with a total dollar value of more
    than $1.3 billion dollars, which support agency operations.

    Policy for Use of Service Contracting. NIMA staff are required to follow
    service contracting policy provided in the Federal Acquisition Regulation (FAR),
    Defense Federal Acquisition Regulation Supplement (DFARS), and the NIMA
    Acquisition Regulation Implementation.

            FAR. FAR provides uniform procurement policies and procedures that
    acquisition planners, procurement officers, and contracting officers use to acquire
    supplies or services.

            NIMA Acquisition Regulation Implementation. NIMA Acquisition
    Regulation Implementation implements FAR and the Defense supplement in
    NIMA procurement activities. NIMA Acquisition Regulation Implementation
    states that NIMA will satisfy internal and external customer needs by maximizing
    use of commercial services and promoting competition. It applies to all NIMA
    organizations involved in or supporting procurement activities.


Objectives
    The audit objective was to determine whether NIMA followed appropriate
    contracting policies and procedures in awarding professional and technical
    service contracts. We also reviewed the management control program as it
    related to the audit objective. See Appendix A for a discussion of the scope and
    methodology, our review of the management control program, and prior coverage
    related to the objectives.




                                         1
            A. Awarding Professional and Technical
               Service Contracts
            NIMA contracting officials did not fully comply with appropriate
            contracting policies and procedures in awarding professional and technical
            service contracts. Of the 86 contract actions that we reviewed, the
            contract file documentation required by FAR was missing or inadequate
            for 85 of those contract actions. In addition, task orders were awarded
            without considering competition or historical data. Those conditions
            occurred because:

                    •   contracting personnel did not have adequate training to develop
                        and maintain required documents,
                    •   senior management did not provide adequate management
                        oversight for contract actions of less than $30 million, and

                    •   staff turnover created an absence of corporate knowledge for
                        ongoing contracts.

            As a result, service contracts for professional and technical services were
            not awarded in the most efficient and effective manner, and may have cost
            the Department more money.


Selecting Contracts for Review
     We judgmentally selected 86 contract actions valued at $247.3 million to
     determine whether NIMA followed appropriate contracting policies and
     procedures in awarding professional and technical service contracts. If the
     contract action reviewed was a modification to a basic contract or task order, the
     information for the basic contract or task order was reviewed for adequacy.
     Specifically, we reviewed contract actions for adequacy of documentation (the
     technical evaluation, price negotiation memorandum, independent government
     cost estimate, and the justification and approval) in accordance with FAR
     guidelines. In addition, five of the actions valued at $46.2 million were reviewed
     to determine the adequacy of the acquisition plan.


Contract File Documentation
     NIMA’s contracting personnel did not adequately maintain contract
     documentation as required by FAR 4.801, “General.” FAR requires that
     documentation in contract files be sufficient to constitute a complete background
     of the acquisition process, support contract actions, provide information for
     reviews and investigations, and furnish essential facts in the events of litigation or
     congressional inquiries. FAR also requires that contracting officers must
     purchase supplies at fair and reasonable prices. Of the 86 contracting actions
                                           2
    selected for review, 4 contract files could not be located and 57 did not contain all
    the required contract documentation. Specifically, the contract files were missing
    one or more of the following contract file elements:

               •   35 of 86 or 40.7 percent* of technical evaluations,

               •   13 of 86 or 15.1 percent* of price negotiation memorandums,

               •   37 of 86 or 43.0 percent* of independent government cost estimates,
                   and

               •   22 of 54 or 40.7 percent* of justifications and approvals
                   (where applicable).

    We reviewed above documentation for adequacy in accordance with the
    FAR 6.304, “Approval of the Justification,” and FAR 15.4, “Contract Pricing”
    guidelines.


Adequacy of Contract Documentation
    Contract documentation required by FAR was missing or inadequate. Contract
    files did not contain all the necessary documents and supporting data. When
    supporting data was included, it was often inadequate. We reviewed the technical
    evaluation, price negotiation memorandum, independent government cost
    estimate, and the justification and approval (where applicable) for 86 contract
    actions to determine adequacy of the documents. We also reviewed the adequacy
    of acquisition plans for five of the contract actions each valued over $5 million.

            Technical Evaluation. NIMA did not follow FAR guidelines when
    developing or preparing technical evaluations. Besides the 35 contracting actions
    that were missing technical evaluations, 9 were adequate, and 42 others were
    inadequate because they lacked specific detail as required by FAR.
    FAR 15.404-1, “Proposal Analysis Techniques,” states that the contracting officer
    is responsible for evaluating the reasonableness of the offered prices and that
    analytic techniques and procedures may be used to ensure that the final price is
    fair and reasonable. FAR 15.404-1 also states that at a minimum, the technical
    analysis should examine the types of material proposed and the need for the types
    and quantities of labor hours and the labor mix. For example, the technical
    evaluation in contract action NMA301-99-D-0015, task order 5010, was a series
    of e-mails between two individuals and did not evaluate the proposed types and
    quantities of labor hours and proposed labor mix. On contract action
    NMA301-99-D-0015, task order 5013, the technical evaluation was not provided,
    instead, notes were included in the pre-negotiation memorandum as a summary
    and labeled as the technical evaluation.

           Price Negotiation Memorandum. NIMA contracting officers did not
    ensure the contract files contained adequate price negotiation memorandums. Of
    *
        Judgment sample percentage does not generalize to universe.

                                                 3
the 86 contract actions reviewed, 31 were adequate, 13 were missing, and 42 were
inadequate because they lacked sufficient detail as required by FAR.
FAR 15.406-3, “Documenting the Negotiation,” states that the contracting officer
shall document in the contract file the principal elements of the negotiated
agreement. The documentation should include the purpose of the negotiation, a
description of the acquisition, identify the contractor and the representative from
the government, the current status of any contractor systems, whether or not cost
or pricing data were required, and a summary of the contractor proposal. It
should also include the most significant facts or considerations controlling the
establishment of the pre-negotiation objectives and the negotiated agreement
including an explanation of any significant differences between the two positions.
For contract action NMA202-97-D-1033, task order 0033, there was no
documented negotiation objective other than the funded amount and no
pre-negotiation fee amount or any additional detail to support general statements.

        Independent Government Cost Estimate. NIMA contracting officers
did not ensure contract files contained adequate independent government cost
estimates. One of the 86 contract actions was adequate, 37 were missing, and 48
were inadequate due to a lack of detail that is required by NIMA Instruction,
“Preparation of Purchase Requests.” NIMA Instruction, “Preparation of Purchase
Requests,” Appendix 4, “Detailed Government Cost Estimate,” states a detailed
cost estimate is required for all construction and architecture-engineer work
estimated at $100,000 or greater, including anticipated modifications. Cost
estimates that were prepared were often unsigned, and included no explanation
supporting the estimate. For example, contract action NMA202-97-D-1033, task
order 0033, the independent cost estimate provided was a purchase request that
was prepared after the contractor’s proposal. That purchase request contained no
additional details to support the estimate. Contract action NMA301-99-D-0008,
task order 13, modification 1, only contained a chart with no explanation of cost
or labor hours.

        Sole Source Justification and Approval. NIMA’s contracting officers
did not ensure justifications and approvals for sole source awards were adequate.
Of the 54 sole source contracting actions requiring justifications and approvals,
4 were adequate, 22 were missing, and 28 were inadequate. Far 6.303-2,
“Content,” requires that each justification demonstrate that the acquisition
required use of the authority cited and a description of the market research
conducted. NIMA’s Supplemental Policy on Other than Full and Open
Competition, “NIMA Instruction for NIMA Acquisition Regulation
Implementation,” January 10, 2000, mirrors FAR Part 6.3. For example, on
contract action NMA301-01-D-0003, task order 0001, the justification stated that
a delay could adversely impact the U.S., but it did not indicate what type of
impact a delay would cause nor did it provide additional support or a description
of the market research conducted. The justification claimed the work was needed
within 30 days; however, the modification indicated that the contractor was
working on this task order approximately 90 days after the justified time period.

        Acquisition Plan. Of the 86 contract actions that were selected, we
reviewed 5 acquisition plans for those contract actions with values over
$5 million to determine content adequacy. Four of the five contract files
contained adequate acquisition plans based on FAR guidelines but one plan was

                                     4
    missing. FAR Part 7.105, “Contents of Written Acquisition Plans,” states that
    acquisition plans for service contracts describe the strategies for implementing
    performance-based contracting methods or provide rationale for not using those
    methods. Also, the acquisition plan must address all technical, business,
    management, and other significant considerations that will control the acquisition.
    Plan contents should include the background and objectives, a statement of need,
    life-cycle costs, and risks. The acquisition plan should also include a plan of
    action discussing source, competition, source selection procedures, budget and
    funding information, and product or service descriptions. The acquisition plan
    ensures that the Government meets its needs in the most effective, economical,
    and timely manner.


Contract Personnel Training
    Background. NIMA, in its role as an acquisition agency, recently reorganized.
    The Acquisition Directorate is now responsible for all acquisition training,
    including acquisition training for “non-systems” personnel. The Acquisition
    Directorate has been challenged to develop and provide a standardized and
    disciplined process across the NIMA community.

    The Defense Acquisition Workforce Improvement Act, passed in 1990, was
    enacted to improve the overall effectiveness and professionalism of military and
    civilian personnel charged with management and administration of Defense
    acquisition programs. DoD established a process through which the acquisition
    workforce could achieve a professional certification level. The certification
    process requires that an individual meet minimum mandatory education, training,
    and work experience requirements for the contracting certification level and
    position. The DoD Director of Acquisition Management and NIMA Instruction,
    NI 5000.3R2, “Acquisition Career Management,” regulates NIMA’s contracting
    personnel training and certification process.

    NIMA’s database for required certification levels and interviews with key
    personnel showed that, NIMA currently has 98 contracting personnel, of which
    71 (72 percent) hold warrants that obligate the Government. The contracting
    personnel included the following: the Deputy Director of Acquisitions
    (Procurement and Contracts), 9 Supervisory Contract Specialists, 2 Supervisory
    Procurement Analysts, 2 Contract Data Specialists, 76 contract specialists,
    7 procurement analysts, and 1 Cartographer. Of the 98 contracting staff:
    66 personnel completed Level III Certification, 14 completed Level II
    Certification, and 5 completed Level I Certification. The remaining 13 were
    either missing documentation that verified that training occurred or they did not
    have the training.

    Service Contract Training. Personnel lacked adequate training for documenting
    and supporting the award of contract actions for services. Despite the level of
    training and certifications held by NIMA contracting personnel, they lacked the
    necessary contracting skills to prepare and maintain adequate documentation for
    independent Government cost estimates, price negotiation memorandums, and
    justification and approvals for the service contracts reviewed. Although the

                                         5
    technical evaluator is responsible for preparing the technical evaluation, it is the
    contracting officer’s responsibility to ensure its adequacy as well as provide
    support for negotiations and award. Specifically, contracting personnel did not
    adequately develop and maintain the necessary documentation as required by
    FAR even though more than half of the contracting personnel are contract
    specialists. A discussion with NIMA personnel disclosed that although NIMA
    has a power point presentation, “Contract Files and Documentation,” which refers
    to FAR 4.803, “Contents of Contract Files,” and lists examples of records
    contained in contract files, it has no formal training class specifically for
    development of adequate documents and maintenance of contract files.

    The presentation is available for those requesting assistance in this area; however,
    it is not mandatory. We reviewed NIMA’s Acquisition Career Management and
    the Acquisition Workforce Certification program requirements to determine
    whether specific courses existed for service and performance-based contracting;
    and determined that the basic courses only contained elements of service
    contracting. NIMA should develop training on maintaining adequate and
    complete contract files for services.


Senior Management Oversight
    Senior management did not provide adequate management oversight for contract
    actions of less than $30 million. Specifically, senior officials did not implement
    oversight strategies to improve service contract actions under $30 million.

    NIMA Acquisition Review Board. On April 13, 1998, the NIMA Acquisition
    Review Board signed a memorandum of agreement with the National
    Reconnaissance Office to use the Acquisition Center for Excellence existing
    infrastructure with respect to the joint support and use of facilities for acquisition
    support services, and training of NIMA programs and personnel. The NIMA
    Acquisition Review Board reviews, oversees, and approves acquisition strategies
    for all acquisitions over $30 million, or any acquisition under $30 million that is
    of special interest to the agency. The NIMA Acquisition Review Board process
    includes review of the acquisition plan, statement of work, source selection plan,
    and justification and approval when required.

    The NIMA acquisition review process for acquisitions over $30 million is an
    excellent process to ensure that service acquisitions provide a high quality of
    support. However, those acquisitions only accounted for a portion of the service
    acquisitions at NIMA. During the audit, all of the contract actions reviewed were
    under $30 million, yet the total value of those actions exceeded $247 million.
    NIMA lacks an adequate oversight process to monitor the performance of all
    service contracts within their agency.

    NIMA Service Contracts Oversight Process. On May 31, 2002, the Under
    Secretary of Defense for Acquisition, Technology, and Logistics issued the
    memorandum, “Acquisition of Services,” requiring each of the Military
    Components to propose a Services Contracts Oversight Process within 60 days of
    the memorandum. The oversight policy for the acquisition of services is intended

                                           6
    to ensure that service acquisitions provide the highest quality support, enhance
    the DoD warfighting capabilities, ensure that required outcomes are identified and
    measurable, and that the acquisitions are properly planned and administered to
    achieve the intended results. NIMA did not meet the 60-day deadline, but
    eventually developed a Services Contract Oversight Process plan, dated
    September 13, 2002. The plan established an acquisition review and approval
    process and addressed the need to revise and update the acquisition plan for
    services between $25,000 and $2 billion.

    The process may improve the oversight of acquisition plans for contracts under
    $30 million; however, the oversight of acquisition plans is only a portion of the
    acquisition process. The Services Contract Oversight Process plan did not
    address the additional pre-award documentation we reviewed, such as the
    technical evaluation, price negotiation memorandum, independent government
    cost estimate, and justification and approval for other than full and open
    competition. NIMA should implement oversight strategies for service contracts
    of less than $30 million that will improve service contract planning, performance,
    and administration.


Contracting Staff Turnover
    Staff turnover resulted in loss of corporate knowledge related to ongoing
    contracts. Contracting staff were unfamiliar with contracting folders and could
    not answer basic questions or explain why required information was missing. For
    example, when contracting personnel were contacted for documentation, they
    stated the original contracting officer had retired and the contracts were split
    between two people, and neither could locate the contract file. Also, NIMA
    identified regularly scheduled performance reviews that were not accomplished in
    a timely manner because of limited staffing. Surveillance and other program
    duties were impacted by staff limitations.


Task Orders Awarded Under Multiple Award Contracts
    Contracting officials awarded task orders without providing all multiple award
    contractors a fair opportunity to be considered. FAR 16.505, “Ordering,” states
    that awardees will have a fair opportunity to be considered for orders worth more
    than $2,500 unless certain exceptions apply. However, NIMA did not use
    FAR 16.505 procedures to award task orders under multiple award contracts.
    NIMA officials awarded 21 task orders, valued at $26 million, using FAR 36.6,
    “Architect-Engineer Services,” procedures. Those task orders were directed to
    specific contractors and the justification provided no exception to support a sole
    source award. FAR does not provide exclusive language granting NIMA the
    authority to use architecture and engineering procedures for mapping and
    surveying contracts. By not using FAR 16.505 procedures, NIMA did not
    provide all multiple award contractors the fair opportunity to compete.



                                         7
Use of Historical Data
     Contracting officials did not use available history from prior contracts to help
     define costs and reduce risk by awarding firm-fixed-price contracts. In 13 of 31
     cost type contracts actions, there was no evidence that prior experience was
     considered by contracting officials when deciding on the contract type. For
     example, NMA201-00-D-0002, task order 0004, defined technical and
     management risks as low because of the contractor’s extensive experience and
     familiarity with program objectives. Instead of using this history to award at least
     a portion of the contract on a firm-fixed-price basis, contracting officials chose to
     award a cost-plus-fixed-fee contract. Since approximately half of the contract
     actions we reviewed were awarded as cost-type contracts, the importance of
     technical evaluations, independent government estimates, and price negotiation
     memorandums was magnified. However, in 80 of 86 (93 percent) contract
     actions, those documents lacked detail and were inadequate.


Conclusion
     NIMA did not fully comply with appropriate policies and procedures when
     awarding service contracts. Service contracts for professional and technical
     services were not awarded in the most efficient and effective manner, despite the
     fact that 85 of the 98 contracting personnel had some level of contract
     certifications. Contract files did not contain essential documents or the
     documents were not adequately prepared in accordance with FAR guidelines.
     The lack of management oversight for contract actions under $30 million did not
     ensure that essential documents were adequately prepared and maintained as part
     of the contract file. Also, the lack of continuity of contracting personnel because
     of promotions, rotation, and retirement of senior management contributed to poor
     contract administration. To ensure the Government receives the best value for
     service contracts, senior management must provide the necessary oversight to
     ensure that essential documents are prepared prior to negotiations and maintained
     in the appropriate contract file.


Recommendations
     A. We recommend that the Director, National Imagery and Mapping Agency:

             1. Develop criteria and training on how to maintain adequate and
     complete contract files in coordination with the National Reconnaissance Office
     Center of Excellence and periodically review a sample of contracts as part of the
     internal control process.

            2. Develop mandatory comprehensive acquisition training for all contract
     personnel that is specific to the preparation and maintenance of detailed technical
     evaluations, price negotiation memorandums, independent government cost


                                           8
    estimates, and justifications and approvals as required by Federal Acquisition
    Requirements.

           3. Implement management oversight strategies for service contracts under
    the $30 million threshold to ensure that contracts are awarded and administered to
    enhance warfighters capabilities and achieve intended results.

            4. Review the assignment of contract surveillance and adjust workload
    and staffing to resolve any imbalance.


Management Comments Required
    The National Imagery and Mapping Agency did not comment on a draft of this
    report. We request that the National Imagery and Mapping Agency provide
    comments on the final report.




                                         9
           B. Management Controls in Contract
              Operations
           NIMA contracting and procurement officials did not tailor assessable units
           to address known problems in contracting operations, and did not include
           tests to determine if actions were taken to improve those operations and
           reduce risk. In addition, self-evaluations were not meaningful because
           they did little more than provide responses to nonspecific questions and
           did not focus on actual contract operations. Those conditions occurred
           because senior officials did not ensure that procurement and contracting
           officials were adequately trained, or that the control program was flexible
           enough to evaluate ongoing operations and adjust control approaches to
           mitigate risk. As a result, contracting operations were not adequately
           safeguarded, and known problems continued to occur.


Management Control Definitions
    Management Controls. Management controls are a system of guidance,
    instructions, regulations, and procedures intended to provide reasonable assurance
    that programs achieve intended results. Management controls are employed by
    managers to support the effectiveness and integrity of every step of a process,
    provide feedback to management, and ensure what should occur in daily
    operations does occur on a continuous basis.

    Assessable Unit. An assessable unit is any organizational; functional (research,
    development, test and evaluation, procurement, contract administration,
    personnel, or organization management, or any combination there of);
    programmatic; or other applicable subdivision capable of being evaluated through
    management control assessment procedures.


Management Control Policies
    DoD Directive 5010.38. DoD Directive 5010.38, “Management Control
    Program,” August 26, 1996, requires DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that program assets are safeguarded against waste, loss, unauthorized
    use, and misappropriation. Directive 5010.38 also states that the management
    control process address all significant operations and mission responsibilities and
    not limit evaluation to operations applicable to the financial management
    community. Whenever existing data does not provide for adequate review of
    management controls, organizations should plan and provide appropriate reviews
    that will enable management to make reasonable judgments about the
    effectiveness of the management controls.



                                        10
    OMB Circular No. A-123. OMB Circular No. A-123, “Management
    Accountability and Control,” June 21, 1995, requires that Federal employees
    design management structures that help ensure accountability for results, and
    include appropriate, cost-effective controls. Agencies must also assess the
    adequacy of management controls in Federal programs and operations, identify
    needed improvements, take corresponding corrective action, and report annually
    on management controls.

    NIMA Instruction No. 7410.5R3. NIMA Instruction No. 7410.5R3, “NIMA
    Instruction for Management Control,” July 16, 2002, mirrors the General
    Accounting Office, “Standards for Internal Control in the Federal Government,”
    November 1999, DoD Directive 5010.38, and the OMB Circular No. A-123 and
    provides guidance and procedures governing the responsibility of all levels of
    management to ensure accountability and effectiveness of agency programs and
    operations by establishing, assessing, correcting, and reporting on management
    controls. NIMA Instruction No. 7410.5R3 states that the Financial Management
    Directorate serves as the senior management office responsible for establishing
    and implementing the management control program.


Adequacy of Management Controls
    NIMA contracting and procurement officials did not tailor assessable units to
    address known problems in contracting operations, and did not include tests to
    determine if actions were taken to improve those operations and reduce risk. In
    addition, self-evaluations were not meaningful because they did little more than
    provide responses to nonspecific questions and did not focus on actual contract
    operations. We reviewed the Statements of Assurance from FY 1999 through
    FY 2002. NIMA reported no material management control weakness in contract
    acquisitions. However, NIMA’s self-evaluations did not address known problem
    areas, and provide a true assessment to reflect the adequacy and effectiveness of
    contract operations.
    Assessable Units of Known Problem Areas. NIMA did not tailor assessable
    units to address known problems in contracting operations. NIMA identified
    Contracts Program, Acquisition Automation Program, Purchase Card
    Procurement Program, and Socio-Economic Program as the assessable units for
    contract operations. The assessable units did not address the functional areas of
    contracting such as, procurement and contract administration, which would have
    addressed the problems identified. For instance, one contract related assessable
    unit “Contracts Program” only measured contract actions awarded over the
    $30 million dollar threshold that required reviews by secondary contracting
    officers, the General Council, and the NIMA Acquisition Review Board.
    However, all of the contract actions we reviewed were less than $30 million and
    represented $247.3 million of NIMA’s business, yet were not addressed under the
    assessable unit, “Contract Program.”

    NIMA conducted an Acquisition Management Review on June 24, 1999, that
    stated a contracting officer obligated the Government over the authorized warrant
    limit, and did not following proper contracting procedures, as required by

                                        11
FAR 1.101, “Purpose.” Tailoring the assessable unit to include contract
administration, would cover aspects of contractual requirements including
acquisition tracking system, contract file organization, billing and payment
controls, performance and delivery, justification for contractual amendment,
contract closeout, and actions to protect the best interest of the Government.
Without measurable criteria for assessable units, self-evaluations cannot provide
reasonable assurance that resources are safeguarded.

Risk Assessment of Contract Operations. NIMA did not include tests to
determine if actions were taken to improve contract operations and reduce risk.
The General Accounting Office, “Standards for Internal Control in the Federal
Government,” November 1999, defines risk assessment as the analysis of relevant
risk associated with achieving the objectives, and forming a basis for determining
how risk should be managed. It also states that risk assessment is one of five
standards that provide the basis against which internal control is to be evaluated.
However, NIMA did not address contracting problems previously identified
during external and internal reviews.

NIMA did not address known problem areas identified during external and
internal reviews. NIMA Inspector General Report IG02-01 “Review of
Procurement and Contracts Management,” December 17, 2001, found that the
acquisition tracking system, PRISM, was incomplete and not fully utilized to
manage contract actions and made a recommendation that NIMA periodically
review the accuracy of data in PRISM. To date, no action has been taken to
ensure the accuracy of PRISM (finding C).

NIMA conducted an Acquisition Management Review of the Procurement and
Contracts Directorate during November and December of FY 1998 that found
problems similar to our results in finding A. The review disclosed failure to
properly document and support contract actions. It further stated that files were
disorganized, making it difficult for anyone not familiar with the file to establish a
cohesive chronology of the contract actions. In addition, the review stated that
contract administration was inadequate. NIMA did not implement control
measures to correct known problems and did not perform tests to measure
improvements. As a result, over 4 years later, the same problems continue to
exist.

Additionally, NIMA contracting personnel identified potential risk areas where no
separation of duties existed between personnel able to make purchases for NIMA
(purchase cardholders), and personnel responsible for accounting for property
(hand receipt holders). NIMA has many individuals who can obligate the
government and are also responsible for accounting for property. The potential
risk exists that cardholders are purchasing items with a government purchase card
for personal reasons and not accounting for items. NIMA should revise the
purchase card policy and procedures to ensure a separation of duties.

Self-Evaluations of Assessable Units. NIMA’s self-evaluations were not
meaningful because they did little more than provide responses to nonspecific
questions and did not focus on actual contract operations. Self-evaluations did
not address problem areas identified and other aspects of contracting; also project
manager responses were limited to five responses ranging from strongly agree to

                                     12
    strongly disagree. Based on the four self-evaluations reviewed, there was no
    evidence that evaluation questions provided a true assessment to reflect the
    adequacy and effectiveness of contract operations. During the audit, we
    interviewed NIMA contracting personnel to determine whether self-evaluations
    provided a true assessment. When asked to provide support for their responses on
    the self-evaluation questionnaires, managers stated that they were confused by the
    self-evaluation questionnaire, and were unable to provide detailed procedures
    used to arrive at their responses.

    NIMA Instruction 7410.5R3 requires that mid-year assessments of assessable
    units should determine their susceptibility to fraud, waste, abuse or
    mismanagement. In FY 2002, NIMA did not include identification of risk areas
    because the senior management control official, stated that NIMA managers did
    not understand how to evaluate risk, even though NIMA’s training slides
    provided guidelines on how to assess risk. Senior management officials did not
    develop an adequate self-evaluation questionnaire that would provide a true
    assessment of deficiencies in contract operations and provide proper training.
    Although NIMA had a general presentation on management controls, managers
    lacked adequate formal training and management oversight to ensure self-
    evaluation questionnaires identified problem areas and represented a true
    assessment of contract operations.


Formal Training and Management Oversight
    Senior officials did not ensure that procurement and contracting officials were
    adequately trained or that the control program was flexible enough to evaluate
    ongoing operations and adjust control approaches to mitigate risk. DoD
    Directive 5010.38 requires training for managers to be consistent with their
    management control responsibilities. Adequate formal training is needed to
    identify assessable units and associated risk factors and to develop a self-
    evaluation process that addresses critical phases of contract operations. NIMA
    provided an on-line overview presentation on management control training. The
    training presentation provided guidelines on how to assess risk and perform
    self-evaluations; however, it did not ensure that managers understood how to
    effectively incorporate basic management controls into their strategies and plans
    for establishing and evaluating assessable units. Interviews with NIMA
    contracting personnel showed that they lacked an understanding of procedures for
    identifying assessable units and completing self-evaluation forms. Adequate
    formal training will allow managers to interact with other peers to ensure
    comprehension of management controls as it applies to their program. NIMA
    should develop formal training specific to developing assessable units with
    associated risk, and preparing self-evaluations that would identify deficient areas
    in the contracting operations so that corrective actions may be implemented in a
    timely manner.




                                        13
Conclusion
    NIMA did not tailor assessable units to address known problems in contracting
    operations, and did not include tests to determine if actions were taken to improve
    those operations and reduce risk. Self-evaluations were not meaningful, and did
    not focus on actual contract operations. Adequate training was not provided.
    Risk remained higher because no corrective actions were taken to improve known
    problems in contract operations or to evaluate ongoing operations and adjust
    control approaches. As a result, contracting operations were not adequately
    safeguarded against fraud, waste or loss, and known problems continued to occur
    in contract operations.


Recommendations
    B. We recommend that the Director, National Imagery and Mapping Agency:

           1. Require formal training for contract operations that will specifically
    address how to develop assessable units, assess risk, and perform adequate self-
    evaluations, to ensure that managers understand how to effectively incorporate
    basic management controls into their strategies and plans.

           2. Revise assessable units to address contracting practices within each of
    the acquisition program management offices.

           3. Revise the self-evaluation form to provide a meaningful assessment in
    the adequacy and effectiveness of contract operations.

              4. Revise the purchase card policy and procedures to ensure separation of
    duties.


Management Comments Required
    The National Imagery and Mapping Agency did not comment on a draft of this
    report. We request that the National Imagery and Mapping Agency provide
    comments on the final report.




                                          14
           C. Accuracy of the Procurement
              Information Reporting Systems
           The accuracy of NIMA’s procurement information reporting systems was
           questionable. This occurred because NIMA did not establish processes to:

                  •   ensure that procurement and contract officials entered all
                      applicable contract actions, and

                  •   monitor the accuracy of the data in the PRISM and the Defense
                      Contract Action Data System (DCADS).

           As a result, internal and external reports generated by both procurement
           information reporting systems were not reliable.


Procurement Information Reporting Systems Background,
  Policy and Regulations
    Background. NIMA uses the PRISM, which is a comprehensive acquisition
    tracking system that automates each step of the procurement process. PRISM
    provides information for comprehensive management of all aspects of
    procurement and assists in streamlining the procurement process. Requisitions,
    solicitations, bid evaluation, automatic milestone plan updates, status
    notifications, and file routing for approval are all available on-line through
    PRISM and are used to answer internal and external data calls, as well as
    compiling award and workload statistics. The PRISM administrator at NIMA
    electronically transmits certain contractual information stored in PRISM to the
    Defense Finance and Accounting Service and the Office of the Secretary of
    Defense.

    In addition to reporting procurement information into PRISM, NIMA also enters
    procurement information into the DCADS, which is the DoD reporting system
    that supports the requirements for the DD Form 350 (DD350), “Individual
    Contracting Action Report.” Contracting officers are required by FAR and
    DFARS to submit a DD350 to the departmental data collection point to report
    selected contract action information that obligates or de-obligates more than
    $25,000. The departmental data collection point for NIMA is the Department of
    the Army. The Department of the Army will electronically record the data and
    submit a monthly report to the Directorate for Information, Operation, and
    Reports of the Washington Headquarters Service, which transmits the
    information to the Federal Procurement Data System.

    NIMA Policy Letter 99-18, “Essential Procurement Information Data.”
    NIMA Policy Letter 99-18, “Essential Procurement Information Data,” states it is
    critical that PRISM data accurately reflect Procurement and Contracts workload
    and contractual documents, as Procurement and Contracts officials rely on
    PRISM to generate internal and external reports. All procurement actions

                                       15
    (obligation, de-obligation, or zero dollars) except for classified acquisition and
    procurement documents, purchase card buys, grants, cooperative agreements and
    other transactions will be entered into PRISM and reported in the Federal
    Procurement Data System by completing a DD350. The DD350 should create a
    true picture of the award and modifications to the contract. Policy Letter 99-18
    was superceded by Policy Letter 02-12, which reinforced the requirements of
    Policy Letter 99-18, and added additional guidance.

    DFARS Subpart 204.6, “Contract Reporting.” DFARS 204.670-2,
    “Reportable Contracting Actions,” states a DD350 must be completed for the
    following types of contracting actions:

       •   that obligate or de-obligate more than $25,000,

       •   that obligate or de-obligate less than $25,000 and are awarded under small
           business set-asides, requires DoD processes for a non-DoD Federal
           agency, multiple reports to separate foreign military sales from non-
           foreign military sales, or actions in a designated industry group under the
           Small Business Competitiveness Demonstration Program,

       •   that establish an indefinite-delivery contract, and

       •   of any dollar amount that the contracting officer chooses to report on a
           DD350.

    Several types of contracting actions are not reported on the DD350. Some of
    those transactions include imprest fund transactions, SF 44 purchases, micro-
    purchases obtained through the use of the Government-wide commercial purchase
    card, non-appropriated fund transactions, and orders from General Services
    Administration stock and the General Services Administration Consolidated
    Purchase Program. For all reportable contract actions, the contracting officials
    prepare the appropriate type of DD350 and submit all procurement information
    each calendar month to the departmental data collection point.

    Federal Acquisition Regulation Subpart 4.6, “Contract Reporting.”
    FAR 4.601, “Record Requirements,” requires each executive agency maintain a
    computer file of unclassified records for all procurements exceeding $25,000.
    Agencies must transmit information to the Federal Procurement Data System.
    The Federal Procurement Data System will organize and present contract
    placement data for the Federal Government. The data are used to provide special
    reports to the President and Congress and measure and assess the impact of
    Federal contracting on the Nation’s economy.


Accuracy of Information Reported
    The accuracy of the NIMA FY 2000 and FY 2001 procurement information
    reporting systems was questionable. NIMA provided a file containing 3,673
    service contract actions that were reported in the NIMA PRISM database of
    which 1,096 were consistent with DD350 dollar value criteria and with award

                                        16
     dates for FY 2000 and FY 2001. A file of 1,351 NIMA service contract actions
     reported as DD350 inputs to the Federal Procurement Data System was obtained
     for the same time period, of which 1,350 were consistent with DD350 dollar value
     criteria. Two steps were used to match the records. The first step involved
     matching records between the two files using four criteria: the reported contract
     number, modification or order number, obligation number, and amount obligated.
     The results of the first step fall into one of three categories: matched, shown only
     in PRISM, or shown only in the DD350. Once the matches were identified, the
     matches were set aside and the remaining PRISM and DD350 records using only
     the contract number and the amount obligated were matched. In the second step,
     records fell into the same three categories: matched, shown only in the PRISM
     file or shown only in the DD350 file. The matches of both runs were added
     together to show the consistency between the two systems. The following table
     summarizes the comparison of contract actions between the two systems.


                Summary of DCADS and PRISM FY 2000 and FY 2001
                               Contract Actions

                           DCADS           DCADS            PRISM           PRISM
                           Contract      Dollar Value       Contract      Dollar Value
                            Actions       (Millions)        Actions        (Millions)
                           (DD350)

     Total Contract        1,350           $907.7           1,096           $717.2
     Actions

     Total Matched           940            606.0             940            606.0
     Contract Actions

     Total Unmatched         410            301.7             156            111.2
     Contract Actions



     Among the 1,096 PRISM records, there were 156 that did not match (14 percent);
     representing $111.2 million of the $717.2 million (16 percent). The DD350 file
     contained 1,350 records in the same time frame with 410 unmatched (30 percent);
     representing $301.7 million of the $907.7 million (33 percent). The files from the
     two systems did not fully reconcile. That raised doubt as to whether the
     information reported in either system accurately reflected all service contract
     actions for FY 2000 and FY 2001.


Reporting of Contract Actions
     NIMA did not establish processes to ensure that procurement and contract
     officials entered all applicable contract actions into PRISM and DCADS. By not
     entering all applicable contract actions, the procurement information reporting
     systems were not reliable and were not in compliance with policy letters and

                                         17
    acquisition regulations. Contracting officers at NIMA are required to enter all
    applicable contract actions into DCADS and PRISM. However, 156 contract
    actions entered in PRISM were not in DCADS and 410 contract actions that were
    entered in DCADS were not in PRISM. Policy Letter 99-18 states that:
               All actions entered into PRISM will also be reported into the Federal
               Procurement Data System by completing a DD350, “Individual
               Contracting Action Report,”. . .

    Therefore, the 156 actions, valued at $111.2 million that were entered in PRISM,
    should have been entered in DCADS. PRISM has the capability to prevent those
    discrepancies. The system has an internal switch that will not allow the release of
    a contract action in PRISM without completing a valid DD350. However, that
    internal switch has been disabled because of the pending DD350 reporting
    requirement changes. The contracting officer is then responsible for ensuring that
    a DD350 is completed for those actions because there is currently no validation
    process to ensure the task is completed.

    For the 410 contract actions that were not reported in PRISM, but reported in the
    DD350, a PRISM administrator speculated that some of those actions were
    purchase card transactions or contract actions awarded by one contracting officer
    that obtained a waiver for reporting contract actions into PRISM. The contracting
    officer buys commercial imagery and inputs those contract actions into a
    commercial imagery purchasing card database instead of PRISM. As a result, we
    were unable to validate whether all contract actions were accurately reported in
    PRISM. Although NIMA does offer training on reporting procurement
    information into PRISM, it is not a requirement that contracting officers attend
    this training. NIMA should require contracting officials to attend the training on
    reporting procurement information into PRISM.


Monitoring the Accuracy of Procurement Data
    NIMA officials did not establish processes to monitor the accuracy of the data in
    PRISM and DCADS. NIMA Inspector General Report IG02-01, “Review of
    Procurement and Contracts Management,” December 17, 2001, found that the
    PRISM is incomplete and not fully utilized to manage contract actions and
    recommended that the Director, Procurement and Contracts Office, establish
    processes and mechanisms to conduct periodic reviews of the accuracy of the data
    in the PRISM. The Director, Procurement and Contracts Office responded to the
    report that acquisition management reviews would be conducted to determine the
    accuracy of procurement actions in PRISM. Since the issuance of the NIMA
    Inspector General report, the Director, Procurement and Contracts Office has yet
    to take any action to ensure the accuracy of PRISM and waived the requirement
    for data validation. The Director, Procurement and Contracts Office has a
    responsibility to ensure the data in PRISM is accurate and to make certain this
    occurs. Periodic reviews of the data should be conducted.

    NIMA has taken steps to improve future accuracy of the PRISM system. NIMA
    is fielding a web version of the existing automated system. The web version

                                           18
    contains numerous validation methods including field validation at the point of
    entry, workflow edits in the system, prevention of unauthorized changes to the
    document, notification to approvers and reviews of actions requiring their
    involvement, and the release of a document after all reviewers have approved it.
    Those validation methods will aid NIMA in monitoring the accuracy of the
    information in PRISM.


Conclusion
    The information compiled in the procurement information reporting systems is
    used by NIMA, DoD agencies, as well as other Federal agencies. It is essential
    that this information be accurate and complete to ensure the information reported
    in those procurement information reporting systems is reliable. NIMA officials
    did not enter all applicable contract actions into the two systems, which generated
    inaccurate internal and external reports. Unless corrective action is taken to
    correct the inaccuracies, PRISM and DCADS will not accurately reflect the
    workload and contractual documents awarded at NIMA.


Recommendation
    C. We recommend that the Director, National Imagery and Mapping Agency:

           1. Provide mandatory training to contracting personnel on reporting
    procurement information to ensure all applicable contract actions are entered into
    the Procurement Request Information System and Defense Contract Action Data
    System.

          2. Conduct quarterly reviews of Procurement Request Information
    System to ensure that the system generates accurate internal and external reports.

           3. Develop a process that monitors and validates the accuracy of the
    contract actions entered into the Procurement Request Information System and
    Defense Contract Action Data System.


Management Comments Required
    The National Imagery and Mapping Agency did not comment on a draft of this
    report. We request that the National Imagery and Mapping Agency provide
    comments on the final report.




                                        19
Appendix A. Scope and Methodology
   We reviewed contract documentation dated from September 1995 to
   December 2001. To accomplish our audit objective, we:

      •   Interviewed NIMA personnel responsible for program and contract
          management to understand the contracting operations and obtained
          contract documentation at NIMA offices in Bethesda, Maryland; St.
          Louis, Missouri; and Reston, Virginia.

      •   Reviewed the completeness and adequacy of contact file documentation
          based on FAR requirements. We also reviewed other Federal and DoD
          regulations and NIMA policies and procedures.

      •   Judgmentally selected and reviewed 86 contract actions, valued at
          $247.3 million, to determine the adequacy of technical evaluations, price
          negotiation memorandums, independent government cost estimates, and
          sole source justification and approvals. The selection process for the
          contracts reviewed is detailed at Appendix B. In addition, we reviewed
          acquisition plans for 5 of the 86 contract actions, each valued over
          $5 million, to determine content adequacy based on FAR Part 7.105.

      •   Analyzed NIMA’s Procurement Request Information System and the
          Defense Contract Action Data System for reporting accuracy.

   We performed this audit from May 2002 through March 2003 in accordance with
   generally accepted government auditing standards.

   Use of Computer-Processed Data. To achieve the audit objectives, we could
   not rely on computer-processed data contained in PRISM and DCADS. Our
   review of system controls and the results of data showed that procurement and
   contract officials did not enter or monitor the accuracy of all applicable contract
   actions. The results of the data tests cast doubt on the data validity. A full
   discussion of the reliability of PRISM and DCADS is discussed in Finding C.
   Use of Technical Assistance. Representatives from the Quantitative Methods
   Division of the Technical Assessment Division, Office of the Assistant Inspector
   General for Auditing of the Department of Defense assisted in a two-step analysis
   to match records of contract actions between NIMA’s Procurement Request
   Information System and the DCADS.

   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in DoD. This report provides coverage of
   the DoD Contract Management high-risk area.




                                        20
Management Control Program Review
     DoD Directive 5010.38, “Management Control Program,” August 26, 1996,
     requires DoD organizations to implement a comprehensive system of
     management controls that provides reasonable assurance that programs are
     operating as intended and to evaluate the adequacy of the controls.

     Scope of Review of the Management Control Program. We reviewed the
     adequacy of NIMA’s management controls over contract management and
     administration. Specifically, we reviewed NIMA’s management controls over
     maintaining contract files, adequacy of the technical evaluation, price-negotiation
     memorandum, independent cost estimate, sole-source justification and approval,
     and the acquisition plan. We also reviewed NIMA’s Procurement Request
     Information System database. In addition, we reviewed the NIMA’s assurance
     statements for FY 1999, FY 2000, FY 2001, and FY 2002 to determine whether
     management identified assessable units and performed self-evaluations.

     Adequacy of Management Controls. We identified material management
     control weaknesses for NIMA as defined by DoD Instruction 5010.40,
     “Management Control Program Procedures.” NIMA management controls for
     contract administration and management were not adequate to ensure that contract
     files were maintained properly, and contained adequately prepared
     documentation, and that the Procurement Request Information System database
     was reliable. Finding A and C discuss the deficiencies in detail.
     Recommendations A.1, A.2, C.2, and C.3, if implemented, will improve NIMA
     contract administration and management. A copy of the report will be provided
     to the senior official responsible for management controls in the Office of the
     Under Secretary of Defense for Acquisition, Technology, and Logistics.

     Adequacy of Management’s Self-Evaluation. NIMA officials did not identify
     assessable units that addressed problem areas from previous internal and external
     reviews; therefore, NIMA did not identify or report the material management
     control weaknesses identified by the audit. Finding B discusses the specifics on
     NIMA’s self-evaluations and known problem areas.


Prior Coverage

Inspector General of the Department of Defense
     Inspector General, DoD, Report No. D-2000-100, “Contracts for Professional,
     Administrative, and Management Support Services,” March 10, 2000




                                         21
Other
        Inspector General, NIMA, Report No. IG02-02, “Quick-Reaction Report on
        Contract Closeout,” April 5, 2002

        Inspector General, NIMA, Report No. IG02-01, “Review of Procurement and
        Contracts Management,” December 17, 2001




                                         22
Appendix B. Statistical Sampling
    We developed a statistical random sampling plan to sample the universe of NIMA
    contracting actions involving the award of NIMA’s population of service
    contracts from FY 2000 through FY 2002. NIMA used the PRISM database to
    provide the universe of 3,675 service contract actions. The universe included
    actions that were active, closed, or had zero balances or negative balances. We
    eliminated from the universe 1,460 contract actions with zero balances, because
    they were only administrative modifications. Also, we excluded 192 contracts
    with negative values. Additionally, we eliminated 530 contract actions that
    pertained to facilities and maintenance (i.e., garbage collection, grass cutting,
    cafeteria, etc.) because the NIMA Inspector General planned to review those
    contract actions.

    We selected 209 sample service contracts from the population of 1,493 positive
    value contract actions using a sample stratified on the basis of the contract value.
    Of the statistical sample of 209 service contract actions, we judgmentally selected
    86 contract actions awarded from FY 2000 through FY 2002 that were valued at
    $247.3 million. To obtain the judgmental sample of 86 contract actions, we
    compared the 209 service contract actions to a list of service contract actions from
    the DD350 for FY 2000 and FY 2001, resulting in 81 matches. The other five
    contract actions, each valued over $5 million, were selected from the statistical
    sample of 209.




                                        23
Appendix C. Adequacy of Contract Actions

                                                                Adequate
                                                                Price   Independent
                     Order/                       Technical Negotiation Government
 Contract Number   Modification   Dollar Value    Evaluation Memorandum Cost Estimate J&A
NMA401-00-D-0004      5005         $259,207.00        N           -           N        -
NMA201-00-D-0001    0002 03        $170,262.00        N          Y            N       N/A
NMA401-00-C-0005     P00003        $879,100.56        N          Y            -       N/A
NMA201-00-D-0002    0008 01        $255,488.00        N          Y            N       N/A
NMA201-01-C-0003     P00002        $241,080.00        N          N            -       N/A
NMA301-99-D-0018    0008 01        $131,387.97        N          N            N        N
NMA201-00-D-0001    0005 01        $153,050.00        N          Y            N       N/A
NMA201-01-C-0005     P00003        $439,120.00        N          N            -       N/A
NMA201-00-C-0002     P00008        $554,519.00        N          Y            -        -
NMA202-98-C-1034     P00009        $560,000.00        -           -           -       N/A
NMA100-97-C-5001     P00052        $600,000.00        -          N            -       N/A
NMA201-01-C-0004                   $258,216.00        N          Y            -       N/A
NMA301-99-D-0016     5002 02      $2,237,526.00       N          N            N        N
NMA301-99-D-0012      0039         $592,993.00        N          Y            N        N
DMA100-96-C-5020     P00015        $145,377.00        N          N            -       N/A
NMA201-01-C-0006                   $354,706.00        N          N            -       N/A
NMA301-99-D-0012      0027         $355,338.00        N          Y            N        N
NMA301-00-C-0001     P00011        $199,908.00        -          N            -        -
NMA202-97-D-1033      0030         $523,413.00        N          N            -       N/A
NMA201-00-D-0002     0007 03       $200,000.00        -          N            -       N/A
NMA201-00-D-0001      0008         $258,500.00        -          N            -        N
NMA201-01-C-0001                   $399,525.00        N          N            -       N/A
NMA201-97-C-1003     P00020        $175,822.00        Y          Y            -        -
NMA202-98-C-1034     P00008       $2,655,000.00       -          N            -       N/A
NMA202-98-C-1021     P00056       $3,202,360.00       Y           -           N       N/A
NMA301-99-D-0016     5008 01      $1,300,491.00       -          N            -        N
NMA201-00-C-0011     P00003       $2,100,000.00       -          Y            N        -
NMA301-99-D-0009      5004        $1,115,935.15       N          N            N        N
NMA301-01-D-0003      0001        $1,500,000.00       N          Y            -        N
NMA301-99-D-0009      5007        $2,089,196.88       N          N            N        N
NMA202-98-C-1021     P00042       $1,389,312.00       Y           -           N       N/A
NMA202-97-D-1033      0033        $3,991,488.00       N          N            N       N/A
NMA201-00-C-0011     P00010       $2,212,769.00       -          Y            N        -
NMA301-99-D-0005      0013        $4,171,028.77       N          Y            N        N
NMA201-00-D-0001      0005        $1,953,050.00       N          Y            N       N/A
NMA301-99-D-0009      5002        $1,373,389.00       N          Y            Y        N
NMA302-98-D-0001      5514         $101,189.40        -          Y            N       N/A
NMA201-00-D-0001      0004         $499,097.00        N          N            N       N/A

                                            24
                                                                 Adequate
                                                                 Price   Independent
                     Order/                        Technical Negotiation Government
 Contract Number   Modification    Dollar Value    Evaluation Memorandum Cost Estimate J&A
NMA301-99-D-0008    0019 04         $185,784.00        Y          N            N        N
NMA301-99-D-0008      0032          $879,144.00        N          Y            N        N
NMA201-00-D-0002    0004 05         $207,627.00        N          Y            N       N/A
NMA301-99-D-0009    0005 08       $1,080,000.00        N          N            N        N
NMA100-97-C-5001     P00076        $4,053,000.00       -          N            -       N/A
NMA301-99-D-0015      5010        $1,584,791.00        N          N            N        N
NMA202-98-C-1021     P00051        $3,673,096.00       Y           -           N       N/A
DMA800-95-C-8029     P00062        $1,469,099.00       N          N            N        Y
NMA201-00-C-0011     P00024        $1,519,922.00       -          Y            N        -
NMA201-97-C-1003     P00019        $2,000,000.00       N          N            -        -
DMA800-95-C-8029     P00057        $6,120,721.00       N          N            N        Y
DMA800-95-C-8029     P00045        $1,700,000.00       N          N            N        Y
NMA100-97-C-5001     P00065        $2,423,757.00       -          N            -       N/A
NMA301-99-D-0012    0020 07       $6,398,534.00        N          N            -       N/A
NMA301-00-C-0001     P00022        $1,200,000.00       N          Y            -        N
NMA100-97-C-5001     P00080        $1,200,000.00       -          N            -       N/A
NMA301-99-D-0008    0015 23       $1,956,042.00        N           -           -        -
NMA301-99-D-0015      5007        $1,120,860.00        Y          N            N        N
NMA100-97-C-5001     P00063        $1,003,094.00       -          N            -       N/A
NMA201-00-C-0011     P00018        $5,439,630.00       -          Y            N        -
NMA301-99-D-0007      5017        $1,451,622.00        N          Y            N        -
NMA301-99-D-0012    0020 27       $2,116,873.00        -          Y            -        N
NMA201-00-C-0011     P00011       $10,525,634.00       -          Y            N        -
NMA201-00-C-0011     P00012       $11,518,736.00       -          Y            N        -
NMA201-00-C-0011     P00002       $13,221,488.00       -          Y            N        -
NMA201-00-C-0011     P00017       $14,400,828.00       -          Y            N        -
NMA201-00-C-0011     P00009       $17,871,637.00       -          Y            N        -
NMA201-00-C-0011     P00021       $28,438,307.00       -          Y            N        -
NMA202-98-C-1021     P00044        $5,318,350.00       Y           -           N       N/A
NMA301-99-D-0007      5008        $2,074,653.00        N          N            N        N
NMA301-99-D-0012      5008          $373,492.00        -          N            N        N
NMA301-99-D-0016      5004        $1,762,721.00        N          N            N        N
NMA301-99-D-0016    5009 09         $799,622.25        Y          Y            -       N/A
NMA301-99-D-0018      0009          $124,616.00        -          N            -       N/A
NMA301-99-D-0017      5005          $997,797.00        -          N            N        N
NMA301-99-D-0005      0015        $1,299,921.00        -          N            N        N
NMA301-99-D-0015      5012          $301,623.00        N           -           N        N
NMA301-99-D-0008    0013 01         $742,435.00        -          N            N        N
NMA201-00-C-0018                  $1,538,938.00        -           -           -        -
NMA201-97-C-1003     P00025         $122,871.00        -          N            -        -

                                           25
                                                                      Adequate
                                                               Price     Independent
                     Order/                       Technical  Negotiation Government
 Contract Number   Modification     Dollar Value Evaluation Memorandum Cost Estimate J&A
NMA301-99-D-0012      5022           $464,778.00      -          -            -       N
NMA301-99-D-0015      5013           $150,997.00      -          N            -       -
NMA301-99-D-0017      0022           $734,809.00      -          -            -       -
NMA202-98-C-1021    P00048         $15,597,015.00    Y           -            N      N/A
NMA301-00-C-0001    P00048         $5,400,000.00     N           Y            -       N
NMA301-99-D-0008     0034          $15,000,000.00    N           N            -       N
NMA401-02-F-0045    P00003         $5,135,000.00      -          N            N       Y
NMA401-98-C-2727    P00050          $5,050,000.00     -          -            -       -
      Total                       $247,348,708.98

                                            Legend
    Adequacy    "-" = missing document
                "Y" = adequate document
                "N" = inadequate document
               “N/A” = not applicable for competed contract actions




                                                26
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organization
Director, National Imagery and Mapping Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          27
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        28
Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Mary L. Ugone
Bruce A. Burton
Eleanor A. Wills
Maria R. Mitchell
Shelly M. Farber
Dana K. Johnson
Tomica Q. May
Denean D. Jones
Todd L. Kowalski
Ann A. Ferrante




                                   30
